Executive Report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing ServicesGrant to the Fort Collins, Colorado Police Department
GR-80-01-002October 12, 2000Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of the grants awarded by the Office of Community Oriented Policing Services to the Fort Collins, Colorado Police Department.  The purpose of the grants is to enhance community policing.  The police department was awarded a total of $675,000 to hire nine new police officers.

We reviewed the police department's compliance with seven essential grant conditions.  We found the grantee to be in compliance with the following grant conditions:  budgeting and hiring of police officers, local matching funds, retention, and community policing.  However, we found weaknesses in two areas as identified below that resulted in $11,927 in dollar-related findings.1

The police department did not draw down all grant funds prior to the award expiration resulting in $11,927 in funds to be put to better use. 
	The Financial Status Reports were not always submitted timely, and were not always accurate.

These items are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.
 







Footnote
1.   The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related finding and the definition of funds to better use.